<html>
<title> - U.S. STRATEGY REGARDING IRAN</title>
<body><pre>[Senate Hearing 111-39]
[From the U.S. Government Publishing Office]


<DOC>
[111 Senate Hearings]
[From the U.S. Government Printing Office via GPO Access]
[DOCID: f:50464.wais]


                                                         S. Hrg. 111-39
 
                      U.S. STRATEGY REGARDING IRAN

=======================================================================


                                HEARING



                               BEFORE THE


                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 5, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                  U.S. GOVERNMENT PRINTING OFFICE
50-464                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                             (ii)        



                            C O N T E N T S

                              ----------                              
                                                                   Page

Brzezinski, Dr. Zbigniew, CSIS counselor and trustee, Center for 
  Strategic and International Studies, Washington, DC............     5


Kerry, Hon. John F., U.S. Senator From Massachusetts.............     1


Lugar, Hon. Richard G., U.S. Senator From Indiana................     3


Scowcroft, Lieutenant General Brent, USAF [Ret.], president, the 
  Scowcroft Group, Washington, DC................................     7



                                 (iii)




                      U.S. STRATEGY REGARDING IRAN

                              ----------                              


                        THURSDAY, MARCH 5, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:37 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Feingold, Menendez, Cardin, Casey, 
Webb, Shaheen, Kaufman, Lugar, and Wicker.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order. I apologize 
to folks for starting a little bit late. It's my fault. I was 
at the Finance Committee, where we're struggling with health 
care in preparation for the White House meeting this afternoon. 
So I apologize that we are delayed.
    It is a really very, very special occasion. We're 
privileged and excited about the opportunity to have these two 
distinguished witnesses here today. Dr. Zbigniew Brzezinski and 
General Brent Scowcroft are two of the most insightful 
strategic thinkers and distinguished public servants in our 
country. We've been very, very lucky, and Presidents of both 
parties have been very lucky to have their advice and counsel 
through many, many years.
    I can think of no better way to cap off this week's series 
of hearings on Iran and its troubling nuclear program. If 
America is going to successfully overcome this extraordinarily 
difficult and pressing foreign policy challenge--I don't think 
anybody missed the Supreme Ayatollah's comments yesterday about 
Israel or about the Obama administration--we're clearly going 
to need the kind of wisdom, the kind of insight which today's 
witnesses have demonstrated throughout their careers.
    On Tuesday we heard from four top experts on Iran's nuclear 
program about the difficulties the United States and our 
partners will face in dealing with this program. Ambassador 
Frank Wisner, Ambassador Richard Haass, Mark Fitzpatrick, and 
Karim Sadjadpour gave us some honest answers about the 
seriousness of the challenge, the realities that we have to 
confront when dealing with Iran, and the diplomatic efforts 
that will be required to avoid some day being left with the 
potential unacceptable choice between accepting a nuclear-armed 
Iran or attacking its facilities.
    Yesterday the committee received a classified update from 
the Intelligence Community, and most members of the committee 
were there to get the latest update on the status of Iran's 
nuclear missile programs, as well as the internal political 
dynamics, and the regional situation, to understand the playing 
field.
    Today we've asked Dr. Brzezinski and General Scowcroft to 
help us look broadly at the security challenge that Iran poses, 
so that we can lay out a vision for the way forward. Both of 
these individuals know what it's like to walk into the Oval 
Office or to the Situation Room and stare at an almost 
overwhelming list of problems and have to figure out where the 
real priorities are and where the real opportunities for 
progress might be. They also understand as well as anyone in 
the country all of the risks tied to those choices. They know 
how to construct and implement a multifaceted approach to 
achieve an ultimate strategic goal.
    If there ever was an urgent challenge that will require a 
multidimensional solution, surely it is this apparent race by 
Iran to develop a nuclear weapon capacity. We know this is a 
challenge that we're not going to deal with in isolation or 
hope we don't have to deal with in isolation. It's not just an 
American problem. It's not just an American perception that 
suggests that it is a problem. And it is best not just, and 
probably cannot be just, an American solution.
    We know that, although Iran may have some distance to go 
before it can test or deploy a nuclear weapon, it is daily 
producing more reactor-grade uranium that can be further 
enriched to provide the guts of a nuclear weapon.
    I have long said that, following consultation with our 
allies and partners, we have to engage directly with Iran, and 
I'm glad that this idea's day appears to be coming. But as I 
said on Tuesday, we've got to be honest with ourselves. We're 
not going to solve this problem just by talking directly to 
Iran. While Iran was just talking to the IAEA and the 
Europeans, it deftly sidestepped every supposed redline laid 
down by the international community. While Iran was just 
talking to the world, it moved to the threshold of becoming a 
nuclear-capable state.
    Iran's leaders need to understand that the full weight of 
the international community will bear down on them if Iran 
continues to defy the United Nations Security Council and the 
International Atomic Energy Agency.
    I would remind people, Iran is a signatory to the Nuclear 
Proliferation Treaty. Iran has obligations under that treaty. 
Iran also has rights under that treaty, and those rights have 
not always been appropriately put on the table. It is deemed by 
virtue of the secrecy of their actions and their unwillingness 
to answer questions that they are in violation of those rights, 
and that is essentially the quandary, the place of 
confrontation that we find ourselves in.
    So we need to understand also and Iran needs to understand 
that the talks that we envision will not be a substitute for 
Iran's requirement to meet its international obligations.
    At the same time as we engage, we have to understand that 
it is by far better to get other countries on board with our 
strategy. For diplomacy to succeed, we need the full backing of 
our allies in Europe, as well as Russia, China, and other 
countries that trade extensively with Iran. We must quickly 
engage with those countries and construct a robust and 
sustainable energy.
    The President's recent announcement of a responsible 
redeployment plan for Iraq, which comes with bipartisan support 
and with the support and endorsement and input of our leading 
generals--General Petraeus, General Odierno, and others--can be 
an additional source of leverage in dealing with Iran because 
it repositions us. But we will only be negotiating from a 
position of renewed strength if we also reassure our allies in 
the region that they will not be cut adrift for the sake of 
making progress with Iran.
    So in short, we need to act boldly, wisely, and quickly 
with our allies and partners to win agreement on the way 
forward and to engage Iran backed by real consequences for its 
continued noncompliance.
    I want to emphasize, as I'm confident that both of our 
witnesses will and I'm sure that my colleague Senator Lugar 
will, we are not seeking a confrontation, nor do I believe that 
there's some overt effort that we're stuck on with respect to 
regime change or anything else. I think it is better for the 
world to see the possibilities of constructively moving on 
issues of mutual interest. On Tuesday we heard many of those 
issues of mutual interest, ranging from Afghanistan to Taliban 
to counternarcotics efforts and many other things.
    So I am hopeful that a solution to this problem will lie 
within our reach through diplomatic processes, and I'm looking 
forward to today's discussion on our witnesses' guidance and 
recommendations on how we can achieve the best way forward.
    Senator Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
join you in welcoming our distinguished guests. They are both 
very dear friends personally, as well as very good friends of 
this committee through their faithful testimony throughout the 
years. They've been generous with their time and counsel on 
foreign policy issues in the past and we look forward to their 
views today on Iran.
    On Tuesday, as you pointed out, the committee heard 
testimony from four distinguished foreign policy experts, and 
they provided helpful analysis of the policy options available 
to the United States in responding to threats posed by Iran. 
The United States agenda with Iran involves numerous issues, 
including the nuclear program, support for terrorist 
organizations, its relevance to our efforts in Iraq and 
Afghanistan, its threat to the security of Israel, its impact 
on stability in the Persian Gulf region, its status as an 
energy exporter, its relationship with Shiite communities in 
the Middle East, and prospects for long-term improvements in 
the United States-Iranian relationship.
    Although all of these issues are interconnected, concerns 
about Iran's nuclear program have understandably dominated 
discourse, given the risks and the consequences of 
proliferation and the uncertain status of Iran's nuclear 
program. Potential leverage stemming from the economic stress 
on Iran caused by the drop of world oil prices and the fresh 
start provided by the Obama government also contribute to the 
sense that the time is ripe for a concerted multilateral effort 
to constrain Iran's nuclear program.
    Our hearing on Tuesday provided an opportunity to examine 
such questions as whether the Iranian Government can be induced 
to limit its nuclear program, what set of multilateral 
sanctions and incentives might achieve this goal, and whether 
success would likely require recognition of a limited Iranian 
right to enrich. There was broad agreement that restraining 
Iran's nuclear ambitions would require greater cooperation with 
allies and partners, most of whom have commercial interests 
with Iran and independent views about the Teheran regime.
    This leads to such questions as what compromises should we 
be willing to make in our approach to Iran to ensure a tightly 
unified coalition, and should the United States make explicit 
to the Chinese and to the Russians that cooperation on Iran is 
at the very top of our agenda with those nations.
    Beyond Iran's nuclear program, the United States Government 
should also be preparing a strategy for engaging Iran on other 
issues, and such engagement should not undercut multilateral 
efforts on the nuclear question. Rather, it should seek to 
establish communications that can avoid miscalculation, open up 
the possibility of cooperation on points of agreement, and 
facilitate information flowing to the Iranian people.
    Last year when Under Secretary of State Bill Burns joined 
representatives of the other P5+1 governments in a meeting with 
the Iranian nuclear negotiator, it signaled a shift in United 
States policy. But we still have not established a clear course 
of action on bilateral engagement, and some suggest the first 
step should be a low-level meeting between United States and 
Iranian officials that would set the parameters for future 
discussions. Others argue that a public, top-down approach that 
clarifies ambiguities and sets the context for subsequent 
discussions is preferable.
    Both Dr. Brzezinski and General Scowcroft have deep 
experience in constructing these types of strategies. I am 
hopeful they will offer thoughts about how a potential United 
States-Iranian dialog could begin and how it should be 
structured.
    Last, I would ask our witnesses to comment on the 
advisability and timing of opening a United States visa office 
or interest section in Iran. I support establishing a modest 
diplomatic presence in Iran. Such an outpost would facilitate 
more exchange and outreach with the Iranian people and improve 
our ability to interpret what is going on in that country.
    I thank the Chairman again for this hearing and I look 
forward to today's testimony. Thank you, Mr. Chairman.
    The Chairman. Thank you so much, Senator Lugar. I 
appreciate enormously again sort of the jointness of the 
statements we made. I might add that I join you in that call 
for the interest section, which I had hoped we would have 
achieved last fall actually, before the change in 
administration. But I think it would be beneficial to move 
forward on that soon.
    Gentlemen, thank you again for being here. Dr. Brzezinski, 
if you would lead off. We'd ask you both if you'd sort of give 
summaries of testimony so we can maximize the give and take 
with the committee. Dr. Brzezinski, if you'd lead off. Thank 
you.

   STATEMENT OF DR. ZBIGNIEW BRZEZINSKI, CSIS COUNSELOR AND 
   TRUSTEE, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, 
                         WASHINGTON, DC

    Dr. Brzezinski. Thank you, Mr. Chairman, Senators. Thank 
you for having us here.
    I had the opportunity to read the testimony given to you on 
Tuesday by Richard Haass, and I agree with its generalized 
approach. Therefore, I am going to focus much more narrowly in 
my own comments on the negotiating process with Iran that the 
President intends to undertake.
    It seems to me that the negotiating process can be seen as 
guided by essentially alternative strategic objectives. At one 
extreme, the negotiating process can be designed deliberately 
to fail, but to do so in a manner that places the onus for the 
failure directly on the other party. That can be an objective 
of negotiations. At the other extreme, the negotiating process 
can be deliberately designed to seek a formula for an 
acceptable compromise that satisfies the basic interests of 
both parties.
    To be specific, if the goal is to encourage, for example, 
the Iranians to be intransigent and in effect deliberately to 
strengthen the role of extremists, thereby justifying 
alternative courses of action than negotiations because the 
negotiations have failed, the United States should publicly, 
first of all, insist that Iran meet certain basic preconditions 
even prior to the negotiating process, in effect seeking Iran 
to make fundamental concessions prior to the negotiations.
    Second, we should publicly threaten Iran with more 
sanctions if Iran is not compliant in the negotiating process.
    Third, we should keep asserting publicly that force and the 
use of force remains an option that may be exercised against 
Iran.
    We can also, fourth, keep saying publicly that it is one of 
our political objectives to achieve regime change in Iran.
    Last but not least, we should continue publicly to label 
the Iranian Government as a terrorist entity, thereby inflaming 
the public mood in Iran, and impose time limits on the duration 
of the negotiations.
    Such an approach would certainly achieve its obvious 
objective: to make certain that the negotiations are not 
productive and that Iran's intransigence is the cause of the 
failure.
    The alternative approach, of course, should be rather 
different. It should seek to engage Iran in a process in which 
there emerges the possibility of some consensual arrangement. 
That of course means that we can and should consult privately 
with our allies regarding the consequences of the lack of 
progress, including the possibility subsequently of imposing 
more stringent sanctions. We can evaluate, to the extent that 
it is feasible, other options, perhaps of a more coercive 
character. But we also have to be very careful not to set 
restrictions on ourselves which dramatically limit our choice 
of action and impose on us a pattern of conduct which could 
lead us in the direction of an eventual collision.
    Obviously, the achievement of a nuclear capability by Iran 
would be a disaster, and I'm quoting President Sarkozy, who 
said exactly that. But President Sarkozy also said that the 
military collision with Iran, the bombing of Iran, would be a 
disaster, and hence our strategy has to be guided by the 
central strategic objective of avoiding both disasters.
    That means that we have to approach the negotiating process 
with some degree of patience, prudence, and with a deliberate 
effort to shape the atmospherics of the engagement because 
atmospherics of the engagement are not only important to the 
negotiating process itself, but they affect Iranian public 
opinion, and that there is a latent Iranian public opinion, and 
we do know that a great many people in Iran are not in sympathy 
with the attitudes so perversely expressed by Ahmadinejad, more 
recently even by the Supreme Leader, either regarding us, the 
Holocaust, or Israel.
    In that context, I think we should be prepared to exploit 
an opening which, probably unintentionally, the Iranians are 
giving us. I have in mind a striking contrast between the North 
Korean approach to the negotiations and the Iranian approach to 
this issue. The North Koreans have said publicly: ``We want 
nuclear weapons, we are seeking nuclear weapons.'' Indeed, at 
one point or another: ``We have achieved nuclear weapons.'' The 
Iranians are saying to us: ``We do not want nuclear weapons; we 
do not seek nuclear weapons; our religion forbids us to have 
nuclear weapons.''
    I don't say that this is necessarily a credible statement, 
but it is a statement which can be picked up in the sense that 
our response to the Iranians can indicate: ``We are prepared to 
explore the veracity of these assertions; we have grounds for 
being suspicions; we need to be reassured. But if you're 
serious about these statements, then by all means let us 
examine means that will make us and the international community 
certain that you are not seeking nuclear weapons, that in fact 
you don't want them, and that, as you claim, your religion 
forbids them.''
    That seems to me to be a goal that the negotiations should 
be designed to pursue; and therefore, we should be very careful 
to avoid any approach which in advance impedes the process of 
negotiations, inflames the context in which they'll be pursued, 
and makes it easier for people like Ahmadinejad to goad the 
United States and to undercut public support for the 
negotiating process in the United States and in the 
international community.
    What I have now said does collide with some of the advice 
or some of the considerations that are currently being 
discussed in the United States. It seems to me that we run the 
risk of wanting to have our cake and eating it too; of engaging 
in polemics and diatribes with the Iranians while at the same 
time engaging seemingly in a negotiating process. The first is 
not conducive to the second.
    I am not naive enough to think that the negotiating process 
would be productive quickly. I am not certain that it will be 
productive in the long run. But I know that if we prejudice its 
chances in the short run, we will not have the opportunity to 
push the process over the longer run. That means that we should 
avoid time limits on the negotiations because they create a 
sense of urgency and pressure which is inimical to serious 
exploration of the issues. We should consult very quietly with 
our allies about what alternative means of pressure we may 
choose at some point to apply. But 
we should start the negotiating process on the basis of a 
serious determination to explore the degree to which there are 
openings for accommodation.
    There are ambiguities in the Iranian posture. There are 
some indications, according to various reports, that the 
Iranians are not moving at full speed to acquire nuclear 
weapons. They may be seeking the capability to be a proto-
nuclear country, but not to cross the threshold of actual 
weaponization or a level that would make weaponization possible 
in the near future.
    We should also be very careful also not to become 
susceptible to advice from interested parties regarding how we 
ought to proceed. There is a fascinating article in yesterday's 
Haaretz on the advice that Secretary of State Clinton was given 
in Jerusalem yesterday on how we ought to proceed with the 
negotiating process. I would suggest that members of the 
committee become acquainted with that advice. I have some 
reservations regarding parts of it because it seems to me that 
if we follow it closely we will be sucked into a process in 
which escalation of tensions and mutual accusations will poison 
the effort at negotiations even at the very start.
    The Chairman. Thank you, Dr. Brzezinski, for a very, very 
interesting and helpful approach and I look forward to 
following up with questions.
    General Scowcroft.

 STATEMENT OF LIEUTENANT GENERAL BRENT SCOWCROFT, USAF [RET.], 
         PRESIDENT, THE SCOWCROFT GROUP, WASHINGTON, DC

    General Scowcroft. Thank you, Mr. Chairman, Senator Lugar, 
members of the committee. It's a real privilege to come before 
you today to talk about such an important issue.
    Iran is an important state in the Middle East, with a proud 
history stretching back for centuries. Unfortunately, both 
Americans and Iranians tend to look at each other through the 
prism of the last 30 years. Before that time, under the Shah, 
Iran was our bastion of regional stability. When we replaced 
the British as the outside power in the region, we counted on 
the Shah to preserve stability in the region. After he was 
forced into exile and with the seizure of our Embassy, we and 
the Iranians developed an intense, visceral dislike of each 
other.
    It seems to me that now we need to get past our emotions in 
order to deal effectively with the problem. Obviously, a first 
step needs to be a willingness to talk to Iranian officials. 
Given our mutual histories and antipathies, each side will want 
to make sure it's found the right interlocutor. This is not a 
straightforward task in the Iranian context.
    Furthermore, I believe now is a time of opportunity and one 
where we ought to try to encourage the tendencies in Iranian to 
liberalize. Voting patterns of the Iranian people indicate they 
want a more open regime. At the end of the day the Iranian 
regime is not what is revolutionary in Iran. The revolution in 
Iran is the people's desire for more openness. The 
conservatives, the mullahs, want to hold things back.
    Ahmadinejad is not the senior-most official we sometimes 
make him out to be. But when our policies and actions encourage 
an appeal to Iranian nationalism, at which Ahmadinejad is a 
master, we play into his hands. We help him use anti-
Americanism to bring the country together. Put differently, the 
conservatives in Iran have actually been helped by our 
policies. We need to stop talking about regime change as the 
objective of U.S. policy and instead to engage in discussions 
with the right Iranian interlocutors to give flower to the more 
liberal tendencies in Iran, which in turn may put pressure on 
the extremists to evolve.
    From a U.S. perspective, I think there are two issues at 
the heart of a dialog and they are interrelated. The first is 
Iran and its role in the region, and the second is Iran and 
nuclear weapons. The fact is that Iran lives in a turbulent 
region, where it perceives itself to be threatened. It's a Shia 
state in a generally Sunni region. It's a Persian state in a 
generally Arab region. We need to be willing to engage Iran in 
strategic discussions and make clear we understand that Iran 
has legitimate security interests and concerns that will 
persuade Iran that it can be secure without the need to acquire 
nuclear weapons and that its continued pursuit of its current 
nuclear program will make it less rather than more secure.
    America likewise needs to convince Iran that we understand 
it's an important state in the region. For example, Iran is 
bound to be involved in what happens in Iraq and Afghanistan 
because Iraq borders it on the west and Afghanistan on the 
east. If Washington and Teheran can work together to help these 
countries achieve stability, it would be productive for the 
entire region.
    I've heard both Israeli and Arab officials express concern 
that the U.S. might cut a deal with Iran at the expense of the 
Arab community. I sincerely believe this is an unwarranted 
concern. America's principal interest is lasting stability in 
the Middle East and the gulf region. This can only result from 
an understanding that deals satisfactorily with the concerns of 
all the states in the region and one that's endorsed by all the 
states in the region. Nevertheless, we need to recognize that 
these concerns on the part of Iran's neighbors are real and 
deeply felt and that any engagement with Iran needs to be both 
preceded and accompanied by close consultations with all of the 
neighbors.
    On the nuclear issue, we need to reiterate that, while the 
international community supports Iran having peaceful nuclear 
power, civilian nuclear power program under proper safeguards, 
a unilateral nuclear program that provides even a latent 
nuclear weapons capability is destabilizing for the region.
    I do not doubt that the Iranian desire to master the 
enrichment process is partly motivated by dangers Teheran sees 
in the region. But we need to convince Iran that it would in 
fact be worse off were it to succeed in developing a nuclear 
weapons capability. This is, I think, of utmost importance 
because we stand on the cusp of a great flowering of 
proliferation if Iran develops such a capability.
    However, I would approach the Iranian nuclear issue through 
a strategic approach, rather than as a precondition to a 
broader dialog, which has been the case in the past. At the end 
of the day, the dialog would convey two fundamental messages to 
Teheran. First, we're aware that you live in a dangerous region 
and we are prepared to discuss a regional security framework 
that addresses your legitimate security concerns. As a 
corollary, we recognize that Iran is an important and 
influential power in the region, and we want to work with you 
on issues of mutual interest. Second, in pursuing your 
enrichment program you're proceeding on a course that 
destabilizes the whole region and will make you, Iran, less 
rather than more secure.
    I believe we can and indeed should work through both 
bilateral and multilateral channels in parallel. Our 
willingness to engage directly with Iran is a form of leverage, 
a way to both mobilize more from our partners and to disarm 
Iran's arguments that we're only out to change the regime in 
Teheran. That is, we can reach out to Iran on a bilateral basis 
and also show that the U.S. is fully engaged in the 
multilateral P5+1, that is the Permanent 5 of the Security 
Council plus Germany, process.
    It would be important to secure--to share responsibility 
with the P5+1 and to engage fully with China and Russia. Just 
as we need to have close and continuing consultations with 
Iran's neighbors to assure them we will not make a deal at 
their expense, we should engage with the P5+1 to ensure they 
see our bilateral engagement with Teheran as reinforcing rather 
than undermining the multilateral mechanism.
    Thus far, that multilateral process has not worked, in part 
I believe because there has not been solidarity among the P5+1. 
I don't think any of them want Iran to continue with their 
enrichment program, but they have not been willing thus far to 
put their bilateral interests at risk. I believe we need to 
create incentives for the other members of the P5+1 to share 
more equitably the burdens and risks of increasing the pressure 
on Iran if it continues on its present course. To this end, for 
example, we should take our wider relations with the P5+1, and 
particularly those of Russia, into account. For example, it 
seems eminently sensible to me to adjust our missile defense 
plans in Eastern Europe if Russia actively helps deal with the 
threat that Iran acquires nuclear weapons technology. But we 
should also persuade our P5+1 partners to increase pressure on 
Iran in a meaningful manner should talks with Iran fail to 
reach a satisfactory conclusion, and engaging and reaching out 
for those talks will help encourage that result.
    An essential goal of our strategy should be to present Iran 
with a solid international front. While the NPT does not 
prevent Iran from enriching uranium or reprocessing spent fuel 
as long as it abides by the IAEA rules, enriching and 
reprocessing are not really acceptable things to do for Iran or 
anyone else in the region, or even broader. I think that a U.N. 
or other international mechanism that guarantees the provision 
of enriched uranium fuel to powerplants is a vastly preferable 
way to go.
    This is not just a problem we have with Iran, although Iran 
is the poster child for it. It's a nuclear problem. If Iran 
continues to enrich uranium, I suspect that Egypt, Saudi 
Arabia, and Turkey at a minimum will feel compelled to have the 
same capability as they move toward development of their 
civilian nuclear power programs. And soon we will have a flood 
of enrichment programs, putting many countries within a few 
steps of producing weapons-grade uranium and with it a latent 
weapons capability. That would not be a better world for 
anyone.
    So Iran could well be a tipping point on the proliferation 
issue. Anything that allows Iran to enrich uranium is a deadly 
peril to the goal of containing proliferation capabilities in 
the world.
    I think we should say to the Iranians: We, the nuclear 
weapons states, encourage peaceful nuclear power. We want to 
support nuclear power. To do that, we're prepared to support a 
mechanism which would provide enriched uranium for nuclear 
powerplants at a price below any cost which a particular nation 
can produce it nationally, and take responsibility for removing 
the spent fuel after it's burned. We will give an international 
organization such as IAEA control of the process so that the 
United States cannot if we don't like your policies cut off 
supplies.
    This would be applicable to all countries of the region, 
not just Iran. And that's why I say we need to address the 
Iranian nuclear program, not as an isolated problem, but in the 
context of achieving an international regime that encourages 
nuclear power, but without the threat of enrichment or 
reprocessing.
    In conclusion, I think the situation, as my colleague said, 
requires sophisticated diplomacy, looking at all the elements 
of a very complicated problem. We need to make clear not only 
what we need from the Iranians, but also what we're prepared to 
do to address their legitimate concerns. We have some 
substantial cards to play in a bilateral dialogue with Iran: 
recognition of Iran's important role in the region and support 
for a peaceful nuclear program, which might include nuclear 
fuel at costs otherwise not possible.
    Direct talks with Iran will not be easy. They will not be 
easy to organize. It's difficult to know who to talk to. But we 
need to go the last mile with Iran, making clear we're not 
trying to freeze them out of their rightful role in the region. 
We must be realistic about prospects of success and we must 
have some patience. If the talks succeed, we will have 
fundamentally advanced the peace and security of the region. If 
it turns out that Iran is simply too intransigent, then we will 
at least have strengthened our hand in leading an international 
effort to restrain Iran by having shown our willingness to go 
the last mile.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, General. Thank you both again for 
very, very important testimony.
    We are going to proceed with a 7-minute round because of 
the number of Senators here, and we want to make sure everybody 
gets a chance to ask questions.
    First of all, Dr. Brzezinski, you twice in your testimony 
said: ``Don't set limits on ourselves''; and a second time you 
said: ``Avoid time limits.'' Is there not, by virtue of Iran's 
own activities and Israel's perception of those activities, as 
well as our own intelligence community's interpretations of 
those activities, isn't there an automatic timetable thrust on 
us as a consequence, unless there is some indication by Iran of 
a willingness to change that timetable?
    Dr. Brzezinski. When I say that there should be no 
timetable, I'm not suggesting that we should engage in 
indefinite, endless negotiations. What I am saying is that 
openly imposing time limits in advance creates a degree of 
pressure which is not conducive to a serious negotiating 
process.
    Throughout the entire negotiating process, however long it 
lasts, whether it's months or several years, we will be in a 
position always to ask ourselves, are we being strung out? Is 
the other side doing things outside of the negotiating table 
that jeopardize the whole negotiating process and justifies its 
abortion? We always retain that right. But I'm saying don't set 
time limits in advance.
    That is the advice, for example, that Secretary Clinton was 
given yesterday: A time limit must be set for the talks. Well, 
if there is a time limit set for the talks, can we keep it 
secret? What is its impact if it's announced in advance? I 
think it is damaging to the negotiating process.
    We can also do things outside of the negotiating process 
which help to create a greater degree of security and 
confidence, not only on our own part or of our immediate allies 
engaged in this venture, but also in the region. For example, I 
am of the view that as we go into the negotiating process we 
should at some point make it clear that we are prepared to 
extend the nuclear umbrella to all of our friends in the Middle 
East because for different reasons there are misgivings both in 
Israel and in the Arab countries, whether it be the Emirates or 
even Egypt and Saudi Arabia, about what the Iranians are doing. 
A U.S. nuclear umbrella would reemphasize the importance of 
deterrence.
    I think we have to some extent lost sight of the relevance 
of our very extensive experience with nuclear deterrence. It 
has worked. It worked with the Stalinist regime which was 
ominous, tyrannical, and murderous. It worked with the Chinese, 
whose leader at one time talked about a nuclear war not being 
so serious because it will kill only 300 million people. The 
Indians and the Pakistanis have managed to deter each other, 
knock on wood, so far.
    In brief, the experience with deterrence gives us some 
grounds for not being under tremendous time limits. And in any 
case, we know that deterrence is predictable if it works. 
Military action sets in motion unforeseeable circumstances, 
which in the present context of the Middle East, the Persian 
Gulf, Afghanistan and Pakistan would be absolutely devastating 
to the American national interest.
    The Chairman. Let me ask you both. Time sort of runs so 
rapidly on these things, but I want to follow up, I want to 
follow up on that because the equation of perception of 
deterrence for Israel, given the nature of the region and the 
challenges that are being thrown at them is somewhat different, 
I think, than the nature of the deterrence that we went through 
for those years of the cold war. And we could probably have a 
good discussion about that, but before we do I put it on the 
table.
    I want to ask both of you. The Iranians are listening to 
this. A lot of members of the Arab community are listening to 
this. The world is listening to this. You are two very 
experienced, thoughtful folks who people respect around the 
world with respect to this kind of an issue. So as we begin 
this hearing and lay this out, I do think it's really important 
to put into context.
    We have a bad record with the Iranians: 1953 and the CIA 
involvement in the overthrow; their perceptions of what we did 
in Iraq; the Congress's public embrace of a regime change 
resolution and concept. If you're sitting in Iran and you see 
the history of that, you're going to make some judgments. The 
United States pulled out of the ABM Treaty. The United States 
has refused to ratify the CTB Treaty. You can run--it's 
important in these processes always to think about how the 
other person sees you, and you know that better than anybody 
else.
    So would both of you please lay out why this--from their 
perception as they think about our intentions and the 
seriousness of our purpose here, why is this more, when we say 
they shouldn't have a nuclear weapon, why is that more than 
just us saying something vis-a-vis Israel? Why is that more 
than the United States holding onto its Perm-5 status with the 
other four members of it plus those who have already sort of 
broken out?
    What is it that is so critical here that brings the 
Russians, the other countries in the region, the Europeans, and 
the United States to say, with justification, it might bring us 
to a point of confrontation, that Iran should not have a 
nuclear weapon? Would you both sort of articulate that as 
clearly as you can?
    General Scowcroft. Yes, I will. I think it is because, as I 
indicated in my remarks, we're on the cusp of an explosion of 
proliferation, and Iran is now the poster child. If Iran is 
allowed to go forward, in self-defense or for a variety of 
reasons we could have half a dozen countries in the region and 
20 or 30 more around the world doing the same thing just in 
case.
    That is not a better world, and it seems to me that is what 
gives urgency to what we're trying to do here. So I think we 
need to do what we can to reassure Iran that we recognize their 
problems and we're prepared to help them deal with the 
problems, that we do our best to solidify the P5+1 process, so 
that Iran is facing a monolith saying ``Don't do this.'' And 
then if that is not successful, then we're in a better position 
to mobilize the P5 with the kind of sanctions that can really 
punish Iran short of a conflict.
    So I think all of these have to play together.
    The Chairman. Building into that, as you answer, Dr. 
Brzezinski, you very wisely left out sort of how people 
perceive those threats. And what you say, if those threats 
become too public and if there's too much concentration of 
people, does it become a matter of nationalistic expression of 
right, if you will, if not pride, that they say: The hell with 
all of you; we're going to do this because you are ganging up 
on us, in a sense. Is there a counterimpact? Dr. Brzezinski?
    Dr. Brzezinski. I think there's a lot of evidence for that. 
Even the Nobel Prize winner for literature----
    The Chairman. Could you pull the mike a little closer.
    Dr. Brzezinski. There's a lot of evidence for what you 
said. Even a winner of the international Nobel Prize for 
Literature, the Iranian lady, who is a critic of the 
Government, has stated publicly: ``We all support the nuclear 
program. This is a matter of principle, of pride, for many 
Iranians of national well-being.'' So we have to be careful 
about that, because if we are awkward in our approach, if we're 
one-sided, if we seem to be seeking negotiations in order to 
impose, we'll simply unify the Iranians and make it easier for 
them to do what they're doing. So that's point No. 1.
    Point No. 2: I do think that taking the position publicly 
that the United States guarantees the security of every 
potentially threatened country in the Middle East with its own 
nuclear deterrent, would have a lot of credibility and it would 
reduce this threat that concerns many Israelis, that they're 
existentially threatened.
    Actually, I don't think they are existentially threatened 
because I don't see Iran the moment it gets its first nuclear 
weapon using it in a suicidal act, because the retaliation 
would be totally destructive. In fact, we were under a much 
greater existential threat when Brent was sitting in the White 
House, when I was sitting in the White House, and we were 
involved in helping the President coordinate the nuclear 
response in the event of an attack. We could have been 
devastated in 6 hours and still faced the option of whether to 
respond or to be finished up completely because of the size and 
the followup potential of the Soviet nuclear arsenal. We lived 
in that reality for years without claiming that we have to 
disarm the Soviet Union somehow in order to continue. So I 
think deterrence can help a lot.
    We also, it seems to me, ought to be more active 
internationally in promoting nuclear disarmament, because part 
of the charge against us in many parts of the world is that 
we're seeking to preserve a monopoly for ourselves, maybe for 
two or three more countries.
    So I think these are the kind of things we can do to 
mitigate some of the problems that we face.
    The Chairman. Could you just finish the part of the 
question about the articulation of why it is so imperative that 
Iran not have this weapon, and the justification for our 
unified actions to achieve that?
    Dr. Brzezinski. Well, actually, on that point, curiously 
enough, what the Iranians say publicly is consistent with our 
position. They say they don't want nuclear weapons. We have 
reason to suspect----
    The Chairman. But they don't answer the questions put to 
them by the IAEA----
    Dr. Brzezinski. That's right. So we have reason to 
suspect----
    The Chairman [continuing]. About what they do in secret.
    Dr. Brzezinski. We have reason to suspect that this is a 
mendacious assertion. But as long as they claim that this is 
truly their fundamental position, we are in a position to say 
to them: ``In that case, let's negotiate an arrangement that 
makes it absolutely credible to the world at large that in fact 
you are not seeking nuclear weapons and you will not have 
them.''
    The Chairman. And you do agree with General Scowcroft on 
the rationale for why they should not have it?
    Dr. Brzezinski. Yes. The potential for nuclear 
dissemination I think is the real threat, not that they will 
use their first bomb to start a war in which they will perish.
    The Chairman. Senator Lugar.
    Senator Lugar. Dr. Brzezinski, earlier in your testimony 
you mentioned a point that one of our witnesses on Tuesday also 
mentioned, and that is that the Supreme Ruler is the major 
factor, major leader in Iran, as opposed to Ahmadinejad. I want 
to pursue that for just a moment, to ask you and General 
Scowcroft. In your judgment, does the Supreme Ruler really want 
to have a relationship with us, that is the United States, or, 
more broadly, with the West? Or does the Supreme Ruler believe 
that his security, regime, and authority is based upon not 
having such a relationship?
    What is your judgment about his preference or his security 
in this situation?
    Dr. Brzezinski. I have somewhat mixed feelings. I think the 
essence of the regime makes it inclined to be wary of a closer 
relationship with us because to them we are the Great Satan, 
and that in a sense justifies their own role in Iran.
    But one also can note at times some shades of disagreement 
between the Supreme Leader and Ahmadinejad. I think many 
Iranians think that Ahmadinejad is a bit of a nut and that he's 
damaging Iranian standing in the world, that his verbal 
exercises suggest a high degree of dementia, and this does not 
fill a country with genuine historical pride in itself with 
much respect.
    So there are these differences. I think our task is to 
avoid becoming engaged directly in their political contests 
while creating an external international context which favors 
the evolution of the Iranian public in a more and more moderate 
direction. We do have plenty of evidence that, particularly in 
the large urban centers, among the younger people, among the 
intellectuals, there is a sense that the extremist agenda is 
counterproductive to Iran's wellbeing as well as to its 
international standing.
    Senator Lugar. But even if public opinion in Iran is in 
favor of negotiating with the United States, does it make any 
difference? In other words, if this is a theocratic regime of 
the Supreme Leader, leaving aside whatever Ahmadinejad's 
situation is, my basic question is, should our negotiating 
posture be one of focusing on the Supreme Ruler? Is he inclined 
to want to negotiate, or is his position one in which he sees 
security by not doing so?
    Dr. Brzezinski. We have no choice, because there is a 
Supreme Leader and he is in charge. If we negotiate with the 
Iranians, we are presumably negotiating ultimately with him. 
But our objective ought to be in the process to create the 
conditions in which it becomes evident to the top people in the 
Iranian elite that it is in their own domestic political 
interest to move in a somewhat more moderate direction.
    Let's not forget, while we have, rightly so, a very 
negative assessment of the Iranian theocracy, it is a theocracy 
wedded to a political process that's considerably more 
democratic than Russia's. The elections in Iran are much more 
of a real contest and they're much more open, and there is a 
much greater degree of competition between the key alternatives 
in Iran than there is in Russia.
    Senator Lugar. General Scowcroft, do you have a comment on 
this subject?
    General Scowcroft. Well, I agree in general with what 
Zbigniew said. I don't think we know about the Supreme Leader, 
but it seems to me, first, he has no reason to feel kindly 
toward the United States. Second, he probably has as his 
minimum achievement preserving the regime in Iran. Now, there 
are others in Iran who are more revolutionary than the Supreme 
Leader. The IRG, at least some elements, are prepared to 
sacrifice Iran in the larger jihadist movement.
    But we need to find out, and I think we need to pose those 
issues to him in a way he will make the reasonable decision. 
One of the interesting things that we're going to see, though, 
is, I agree with Zbigniew we should not appear to interfere in 
any way in the election process, but now we're going to have 
Ahmadinejad running, we're going to have Khatemi running, and 
apparently Larijani. That's a fascinating political lineup, and 
one in which, if they're all allowed to run, the Iranian people 
will really get to say whether they like the Ahmadinejad 
nationalistic, xenophobic approach, or whether they like 
Khatemi's more open, embracing posture.
    So I think we have a lot to work with here, but we have to 
be careful that we encourage the good side and don't push Iran 
back into their fortress mentality.
    Senator Lugar. The reason I ask is, just being the devil's 
advocate for a moment, the election may be very interesting and 
quite competitive and we are extremely interested in its 
outcome. But I want to return to the point that despite all of 
the debate and interest, if down deep the Supreme Ruler feels 
that the regime needs to retain, if not hostility to us and to 
the West, at least no particular accommodation, and that a 
nuclear program is a part of that situation what are the real 
prospects for an agreement. I am focusing on this because we've 
had a lot of testimony that public opinion is important, that 
we ought to have transparency as we formulate our policy, 
transparency as we formulate relations with the Europeans, and 
I think there's logic to that, so that the Iranian people see 
all of this, or anybody who is in Iran. But when it finally 
comes down to it, even if they do see all of it, what authority 
do they have or what ability to change the mind of the Supreme 
Ruler or those who are closest to him in a theocracy that has a 
set pattern?
    Dr. Brzezinski. The Supreme Leader, as well as the entire 
Iranian leadership, has to also consider the overall condition 
of the economy, the question of social stability, the wellbeing 
of the people. There is, after all, some reciprocal 
relationship between the rulers and the people, even in an 
autocracy, in which there is a sense of kind of commonweal, 
common destiny.
    This is a country with genuine traditions of statecraft and 
historical and cultural pride. It is also a country in which 
the social indicators suggest that it is a country moving 
toward an increasingly higher level of modernity, certainly 
comparable in many respects to Turkey in the level of literacy, 
access to universities, particularly of women, amount of women 
in law, medicine, and so forth, there is even a woman who is a 
vice president of the country. Most Americans probably don't 
know that.
    This is a country in which increasingly large numbers of 
people go on vacations, particularly to Turkey, less so to 
Europe, but towards the West. In other words, this is a country 
in which some of the social dynamics, not very visible under 
this super-overlay of theocratic fanaticism, are actually 
evolving. And even the Supreme Leader, to the extent that he 
wishes to remain a leader, has to take these considerations 
into account.
    If we can subtly encourage that process by avoiding a 
posture which is easy for him and his associates to translate 
to the public as being dedicated to unlimited hostility toward 
Iran, I think we help the interests that we're anxious to 
promote, and we help perhaps even in the long run to revive at 
some point in the future the traditional amity, even at one 
point alliance, between Israel and Iran.
    Israel and Iran were in a close relationship under Golda 
Meir, including the beginnings of the nuclear relationship. 
Iran received help from Israel during the Iran-Iraq War under 
Prime Minister Begin. Prime Minister Rabin once said that 
Israel and Iran are natural allies, I assume because of the 
principle that the neighbor of my neighbor is my friend, and 
it's a perfectly sensible and well-tried principle.
    So I am simply saying we should not lock ourselves into a 
posture in which we view the current enmity with Iran as 
something indefinitely enduring, and that we do have some 
subtle means to try to alter that, with some receptivity in 
Iran that we can nurture as well.
    Senator Lugar. My time is up, but it would be interesting 
to pursue how the Supreme Leader looks at the regional balance 
of power, terrorism, economic picture, and Iran's history. In 
other words, there might be some reasons why the Supreme Leader 
could come under some circumstances to a different view toward 
us.
    Dr. Brzezinski. Right. And let's not be deceived by the 
word ``Supreme.'' He is the leader, but supremacy in every 
system has some limits. In their system it has more limits, 
let's say, than in some others.
    Senator Lugar. Thank you very much.
    The chairman has asked me to recognize Senator Feingold.
    Senator Feingold. I thank the chair, and I want to thank 
Chairman Kerry for his leadership in making sure we have a 
particular emphasis on Iran this week. I think it has been very 
useful.
    I particularly want to thank these distinguished witnesses, 
not only for their superb careers, but in particular for the 
quality and the clarity of the testimony today. It's just so 
helpful and interesting to listen to. Thank you very much.
    As you both know, Iran poses a threat for a number of 
reasons, including its nuclear ambitions, its missile 
capabilities, and its support for terrorist groups. How would 
you rank these in terms of how direct the threat is to the 
United States and its interests and its allies and in terms of 
the urgency and seriousness of the threat? And also, how should 
we factor in the missile threat to Europe into our threat 
analysis?
    General Scowcroft. Well, I'm not sure I can rank them 
because I think they're all serious problems. The nuclear 
threat I think is probably the most serious in terms of the 
world impact if they get away with it. But I think it is also 
the one where we are likely to get the greatest amount of 
support in dealing with it if we go about it the right way. For 
example, a missile deployment, defensive missile deployment in 
Eastern Europe. The previous President said at least a couple 
of times, we cannot allow Iran to develop nuclear weapons, and 
yet we're building a missile deployment for when they do. Now, 
if you're the Russians what do you take from that?
    It seems to me that the way to go is go to the Russians and 
say, look, neither of us want nuclear weapons to be developed; 
let's work together. Then we don't need this, and we're 
prepared to delay long enough so that we can see whether or not 
it's necessary, and if it's necessary for us it's necessary for 
you. It's a different approach.
    With the Chinese it's a little different. The Chinese get a 
lot of oil and Iran is a good customer. But what happens if 
there's a turmoil in the Middle East, a conflict in the Middle 
East? What happens to their oil supply?
    So everybody has important interests, if we can draw them 
together. I think Iran as a power in the region, it's very 
important for us, but probably less apocalyptic in the sense 
that they can help us or hurt us in our dealings with Iraq and 
with Afghanistan. We had some incipient cooperation with them 
in the early days of our operations in Afghanistan, which fell 
apart.
    So I think we have to deal on all fronts equally, and I 
would not prioritize.
    Senator Feingold. Doctor, do you want to comment on that?
    Dr. Brzezinski. Let me just add this, and perhaps this may 
be a little controversial. We're talking about a relationship 
and you mentioned the issue of threat. There is an American-
Iranian relationship and if you look at the relationship you 
have to ask yourself in what way, to what degree, they're 
affecting us adversely, but you also have to ask yourself: How 
does it look to the Iranians? Who threatens whom more? Are we 
more threatened by the Iranians or are the Iranians more 
threatened by us?
    For example, who talks about the use of force a lot? And 
who has infinitely more force? So it's a little more 
complicated than, ``are they a big threat to us?'' Yes, some of 
the things they do affect our interests adversely, but some of 
the things we do probably are a source of very major concern to 
them.
    There's a further consideration involved here. We have 
become extremely casual in the use of the word ``terrorism.'' 
We don't like somebody, well, of course he's a terrorist. 
That's a slippery slope and it doesn't help to really deal with 
the complexities of the issues. It also eventually reduces the 
word ``terrorism'' to political convenience. Note, for example, 
our negotiations with North Korea, a terrorist state; but if 
they agree to what we say to them on plutonium, we'll take you 
off the list as a terrorist state. What's one got to do with 
the other?
    Senator Feingold. I think your point is well taken on that. 
I would add that Iran is a very disturbing country, but any 
country that watches another country invade the country to its 
west and the country to its east is going to get a little 
nervous and edgy, which of course is exactly what we've done. 
So that people have to understand the mutual perceptions 
between our two countries, the history is a very disturbing one 
ever since Mossadeq was taken out, and that this is something 
that we have to look at from both points of view.
    At a Foreign Relations Committee hearing earlier this week, 
one of the witnesses, Karim Sadjadpour from the Carnegie 
Endowment argued that building confidence with Iran is critical 
to a productive dialog, a process that he said ``will be easier 
if our efforts initially concentrate on areas of shared 
interest, such as Afghanistan and Iraq, rather than those of 
little or no common interest, such as the Israeli-Palestinian 
conflict and the nuclear issue.''
    Do you agree with this approach? If you start a dialog on 
points of common concern, how do you then direct it toward 
other national security concerns like the nuclear program or 
support for terrorist organizations, or whatever term you want 
to use, doctor?
    Dr. Brzezinski. In my view, they need not be sequential. 
They could be parallel. I recently commented publicly on 
President Obama's timetable for withdrawal from Iraq. My point 
was that for that to be effective and to minimize the 
potentially destabilizing consequences of our departure we 
ought to launch simultaneously with the withdrawal process an 
effort to engage all of Iraq's neighbors in regional security 
negotiations, because every one of Iraq's neighbors will be 
affected adversely if Iraq becomes destabilized. That includes 
Iran and Syria. So I favor security talks which include the 
Iranians regarding Iraq. Similarly, I think we had a rather 
constructive relationship briefly with the Iranians late in 
2001 and in 2002 regarding the Taliban issue in Afghanistan. I 
think that could be resumed as well. And at the same time I do 
favor the initiation of talks directly with the Iranians 
involving us particularly, not just through our European 
friends, regarding the nuclear program. I think that should be 
initiated before too long. I've already tried to articulate the 
context and the manner in which this should be done.
    But I'm also of the view--and I think this question was 
raised either by Senator Kerry or Senator Lugar and we didn't 
respond--that we not delay these talks, unless the Iranians 
want to delay them, past the Iranian selections. I would rather 
start them at a low level, a low key fashion, before the 
elections, so that Ahmadinejad cannot claim in the course of 
the elections that the Americans are waiting to negotiate with 
Iran after he is defeated, which would then perhaps help him. 
So let's start the process now, which woul d, of course, under 
the mandate of the Supreme Leader in any case.
    So I hope that's responsive to what you asked.
    Senator Feingold. General, did you want to make a quick 
comment on the strategy for negotiations that the doctor 
responded to?
    General Scowcroft. Well, I would just say that we ought to 
start them in as comprehensive a fashion as we can. We don't 
know. We're not used to talking to the Iranians and that will 
take some time. Even finding out who to talk to usefully will 
be a major challenge. So I would not say this is more 
important, let's focus on this. I would start and push on all 
fronts, and we'll see what's productive and what isn't 
productive as we go along. This will take exquisite diplomacy.
    Senator Feingold. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Feingold. I 
appreciate it.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Thank you both for your service and your testimony. I want 
to ask you, is there doubt in either of your minds that Iran is 
seeking to acquire a nuclear weapons capability?
    Dr. Brzezinski. I would put it this way. If I had to make a 
categorical judgment, I would say that they are probably at 
this stage aiming at having a capability somewhat similar to 
that of Japan, which is an NPT signatory, which is not in 
violation of the treaty, but which has reached a threshold in 
which it is what I call a proto-nuclear power, that is to say 
one that could rapidly move towards effective nuclear weapons 
capability if there is a political decision to that effect, but 
will not cross that threshold in the near future.
    Senator Menendez. General.
    General Scowcroft. I would not dissent from what Zbigniew 
just said. I think we make a mistake or have recently in 
claiming that they seek a nuclear weapon, because it seems to 
me the problem is there whether they want a nuclear weapon or 
whether they simply want to control their civilian power and 
have their own enrichment capability. I think that is almost as 
big a threat because, as I say, I am more concerned about the 
spread of nuclear capability in terms especially of uranium 
enrichment than Iran itself having a weapon. I think that is a 
much bigger threat, the general threat.
    When we say--when we say, well, you want a nuclear weapon, 
and they say, no, we don't, then a lot of the world who's 
suspicious of us anyway says, well, what's our point? I think 
we have to go after the broader question, not the narrow 
question.
    Senator Menendez. Well, I raise the question----
    Dr. Brzezinski. Could I just add one sentence?
    Senator Menendez. Surely.
    Dr. Brzezinski. This is exactly what we should not be 
saying, and I quote: ``They have declared they want to have a 
nuclear weapon to destroy people.'' A statement by the 
President of the United States in March 21 of last year. It's 
absolutely false. They have never declared that.
    General Scowcroft. That hurts us.
    Dr. Brzezinski. That hurts us.
    Senator Menendez. I asked the question because----
    The Chairman. For people who don't keep track of the dates, 
that's the other President. [Laughter.]
    Dr. Brzezinski. March 21, 2008.
    Senator Menendez. I asked the question because if Iran's 
nuclear program is for peaceful purposes only, then one must 
ask themselves why they've refused to cooperate with the IAEA, 
why do they continue to act in defiance of multiple U.N. 
Security Council resolutions. It clearly raises the concern 
that if you have peaceful purposes at the end of the day you'd 
act differently in order to assure the world that you have 
peaceful purposes at the end of the day.
    General Scowcroft. Well, they have answers to those 
questions. Their argument why they need their own enrichment 
program is that they've tried to cooperate and the Germans were 
going to build the first plant, they backed off. We were going 
to supply enriched uranium to them; we backed off. Unless they 
have control of it, they are subject to the whims of the great 
powers. That's their argument.
    They simply don't answer the question, why don't they let 
the IAEA have free run. They simply don't answer it.
    Senator Menendez. Well, let me ask you this. If the goal of 
engagement is to dissuade Iran from continuing its enrichment 
work and acquiring a weapon or a breakout capability, do you 
believe that it can work in the necessarily short time frame 
that we have, based upon some of the reports that we've seen 
about where their capabilities are at this point?
    General Scowcroft. Yes, I think it can. I don't know if it 
will. I don't know if it'll work at all. But it seems to me 
that it is worth a try, because in the process of trying, if 
the United States is really sincere, we're likely to get on 
board people who suspect now, who say we're sitting off in the 
corner throwing rocks at them, asking for sanctions, but not 
trying to solve the problem. If we can convince everybody else 
that Iran is implacable and only the use of coercive force, 
sanctions or whatever will work, then we're in a much better 
position than we're in right now, because we're the bad cop and 
so everybody else just goes about doing their own business.
    Dr. Brzezinski. I agree with that.
    Senator Menendez. But the time is ticking on us as well.
    General Scowcroft. Yes.
    Senator Menendez. We have an enormous challenge here. It's 
not that we have an open-ended opportunity.
    Let me ask you one last question. Just yesterday Iran's 
president called Israel a ``cancerous tumor,'' and it called 
upon Muslims to join in what he calls ``resistance'' against 
Israel. Earlier this week, President Abbas said, ``We are 
sending a message to the Iranians and others to stop 
interfering in our affairs.''
    I just wonder, how do you characterize Iran's behavior 
within the region? And looking at that behavior, how would 
acquiring nuclear capability embolden Iran as a power within 
the region?
    Dr. Brzezinski. Well, obviously if Iran had a nuclear 
weapons capability it would probably be emboldened, and this is 
why we do not desire that outcome and we are prepared to work 
against it. The question is how are we going to be effective in 
working against it. In my view we should not rule out the 
negotiating process, especially given the repeated commitments 
by the Iranians to the effect that they don't want nuclear 
weapons, but they do want a nuclear program.
    I think we ought to try to see whether it is possible to 
find a formula whereby these seemingly incompatible objectives 
are somehow squared. We shouldn't overdramatize the immediate 
international effects of having a bomb. I agree with Brent that 
the most important effect will be the impetus towards 
proliferation in the region, but it's not going to be some sort 
of a suicidal nuclear war. That is really an extreme, 
fundamentally irrational assumption for which there is no 
proof, and simply anxiety and uncertainty cannot be the basis 
for serious action.
    This is, whether we like it or not, a serious country of 70 
million people, with a tradition of responsible statecraft by 
and large. It is a country that is profoundly aware of the fact 
it's totally vulnerable to an attack by us, or even eventually 
by the Israelis; if push came to shove and they had to use 
their nuclear weapons against Iran they could greatly damage 
that country. There's no evidence that Iran as a country, with 
its traditions, its self-interest, its pride, is bent on 
committing suicide.
    We never felt that about the Chinese. We never felt that 
about the Russians. The Pakistanis and the Indians have managed 
to control their mutual anxieties. I don't see any evidence 
that the Iranians, the moment they have a bomb, which I think 
we can postpone or avoid, are going to plunge head-long into 
suicidal adventurism.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Menendez.
    Let me just say that, through the wonders of Blackberries, 
I can tell you that Secretary Clinton, who is now in Brussels, 
has announced that the Obama administration is going to be 
convening a meeting on Afghanistan on the 31st of this month. 
And Robert Wood, the spokesperson for the State Department, has 
publicly stated that that meeting will include Foreign Minister 
and/or equivalent from Iran, because obviously that's important 
to Afghanistan.
    So I think a process is already under way and I think 
that's a wise--first of all, it's wise to meet on Afghanistan. 
Second, it's wise to be inclusive.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman, and thank you for 
the sustained focus this week on Iran and the challenge that it 
presents.
    We want to welcome----
    The Chairman. Let me just also announce--I apologize, 
Senator--there's a vote that I think has been scheduled now for 
12:10. So we'll try to push through here and I think we should 
be able to wrap up by that time, because I know both of these 
folks have another engagement.
    Thank you, Senator Casey.
    Senator Casey. General, thank you. Doctor, thank you. As I 
told you in the anteroom, I purchased your book, with my own 
funds.
    General Scowcroft. But you also said you haven't read it. 
[Laughter.]
    Senator Casey. And I haven't read it. I was about to admit 
that. But I'll tell you, when you have that book in your office 
on a coffee table and you get visitors, it impresses them. I 
want you to know that. [Laughter.]
    Senator Casey. So now I get----
    General Scowcroft. We're happy to be of service.
    Senator Casey. The next time you appear you'll have to quiz 
me and see if I actually got to it. But I'll do my best.
    But it's instructive for us on this committee to have a 
book like that and have resources like that in your testimony 
today, and I know this isn't the only testimony you're 
providing today. But we're grateful for your service to the 
country and for your continuing work on these difficult issues.
    I wanted to try to get to maybe three issues rather 
quickly, but the first one probably taking the majority of the 
time. That's on sanctions. We read about as citizens and as 
Senators stories and analyses about how sanctions are working 
or not working in the context of Iran. I guess I'd ask you 
generally, based upon your knowledge of this particular 
challenge, but also more broadly your experience in foreign 
affairs in similar circumstances, to evaluate the efficacy or 
effectiveness of the sanctions to date, mostly of course in the 
Bush Administration; and then also what your recommendations 
would be or how would you construct sanctions going forward 
with regard to Iran, in the context of obviously the Security 
Council, but also what our government does and says in the 
context of what sanctions can work.
    We know that the financial sanctions and that isolation 
becomes part of this, but also refining capacity. That's always 
put on the table as probably a lot more serious step to take. 
Please give us your evaluation of where we are on sanctions and 
where we should be headed?
    General Scowcroft. Well, Senator, I think we're not very 
far on sanctions, but I think it's partly due to reluctance of 
many of the major countries of the world to hurt what is a good 
commerce, and also to the attitude of the United States 
because, as we both said, we have not been participating in the 
dialog with Iran. First of all, we said before we'll talk to 
Iran they have to suspend enrichment, so they have to give away 
their biggest card before they sit down at the table. And 
that's been the general attitude. So there's been a great 
reluctance to agree to sanctions that are anything more than 
showing symbolic solidarity.
    Sanctions generally are a very imperfect instrument. In 
this case, sanctions would require--I think they could be very 
effective, but they will require sincere acceptance by the 
major powers. As you say, oil refining; Iran has to import a 
lot of its refined product. That's a tremendous weapon for 
sanctions, but it takes agreement and it takes--people get hurt 
by it, and the reaction could be that Iran cuts off exports of 
crude, which hurts everybody, including Iran.
    So it's a complicated issue. But I think potentially, if 
the P5+1 could get to the point there's nothing left, then I 
think sanctions could be really effective.
    Senator Casey. Doctor.
    Dr. Brzezinski. I basically agree. I think they work at the 
margins, but they don't work on fundamental issues. Look at 
ILSA. It really hasn't achieved its objectives in a strategic 
sense. In the present economic crisis, I think there could be 
also complications with our friends if we are arbitrary about 
them.
    As Brent just said, just think what it would do to the 
European quest for energy security diversification if we could 
get Iranian oil and gas to be really exported at full capacity, 
particularly to Europe. So in fact let's be careful not to 
throw the baby out with the bathwater.
    Senator Casey. I wanted to ask you about the question of 
how we talk and the strategy that's employed to make sure that 
any kind of effort to have a new approach to talking, whether 
it's bilateral or multilateral. If you were designing the next 
6 months, so to speak, of our policy, how would you design it 
and what would the structure be for how to construct a process 
to make sure that talking and engagement leads to results that 
you can identify, you can almost quantify? We know this 
administration has a different point of view than the prior 
administration about engaging Iran, how would you, if you were 
designing it construct it?
    Dr. Brzezinski. Well, I would certainly avoid the things I 
talked about early on in my testimony. I think we have to 
approach these talks as a serious, potentially a very important 
undertaking. And we ought to do it in a fashion which respects 
the interlocutor.
    I would start with the Iranians simply by trying to first 
of all draw up some sort of a mutually agreed agenda regarding 
an analysis of the record in the nuclear area--in what respects 
the Iranians have been compliant with NPT and with IAEA; what 
are the accusations against noncompliance; what are the areas 
in which suspicions and concerns can be narrowed--pointing then 
to some perhaps mutual advantages in accommodation, beginning 
to spell out the benefits to Iran of an accommodation in which 
we have assurances that they're not doing what they say they're 
not doing and in which their compliance with standards gives 
them tangible benefits.
    The joint memo of the ministers of the Five of last June I 
think outlined a potential agenda, and I think this could be 
then examined in much more detail. That process probably would 
take us into the summer. By then there will have been elections 
in Iran. We'll see what the political situation is and then we 
can again reassess and see how we go from there.
    We will not get much assistance from the Chinese or the 
Russians unless we are prepared to be patient. The Chinese are 
extraordinarily vulnerable to a crisis in the Persian Gulf, 
extraordinarily vulnerable. This is where their position is 
somewhat different from the Russians. The Russians, who may 
have reservations about Iran going nuclear, would be 
financially massive beneficiaries of an American-Iranian 
crisis.
    Senator Casey. I know I'm out of time by a minute, so we 
can move on.
    The Chairman. It's an important and it's an important 
answer.
    Senator Kaufman.
    Senator Kaufman. Mr. Chairman, I also want to thank you for 
holding these hearings and holding them together like this. It 
really makes them very, very helpful to me. I think Dave 
Ignatius got it right. He wrote a column earlier in February 
saying that you two are the A Team for Iran. I totally, 
absolutely, I agree with him.
    Dr. Brzezinski. I'm sure he was doing us a favor.
    Senator Kaufman. Well, I think he absolutely nailed it, to 
tell you the truth.
    General Scowcroft. He's trying to get rid of us. 
[Laughter.]
    Senator Kaufman. I think not.
    You know, what he said in the article, and just listening 
to you here today, that there's a real agreement between the 
two of you that this new engagement policy's a good one. But 
there was a little disagreement, he said--and I couldn't see 
any clarification to that--whether we should do this in public 
or in private. Could the two of you just talk about carrying 
on--the excellent question that Senator Casey asked: Is it best 
to do it in public or in private?
    General Scowcroft. I think that depends heavily on the 
Iranians. And we do differ somewhat, I believe, on that. I 
would be inclined to start off in private, for this reason: 
That negotiations with the Americans is a very controversial 
issue inside Iran, and we don't know whether people in the end 
are afraid to stick their necks out to be seen negotiating with 
the Americans.
    I had some experience with that in the first, the Bush 
Senior administration, where we got very close to negotiations 
and they backed out at the last minute. So I would let it 
depend, but I would make the first overtures with the Iranians 
quiet ones. First of all, we've got to figure out, get a 
serious interlocutor on their side, and that's not easy. Who do 
you talk to? The government? That's who foreigners should talk 
to. But the government doesn't hold the power.
    So there are all kinds of problems here, but I would be 
inclined to start quietly.
    Dr. Brzezinski. We may have narrowed our disagreement by 
what you just said. First overtures, of course they have to be 
done quietly. How else can we do it? We're not going to do it 
on television or radio. So yes, preliminary discussions 
quietly.
    But once the negotiating process starts, I would favor 
conducting it openly, not necessarily with open sessions, but 
sessions that are publicly known, maybe even some press 
briefings afterwards if there is agreement about press 
briefings. My reason is this: If you do it secretly, first of 
all there'll be a lot of suspicions by outsiders as to what's 
going on. Second, you place yourself at the mercy of the party 
that is prepared to leak and to distort. And given the 
negotiating record of the Iranians, with whom, sadly, I have to 
say, I had to negotiate, I don't have that much confidence that 
the process would be protected and that the secrecy wouldn't be 
exploited at some moment to create something awkward for us.
    Senator Kaufman. General, you talked about how other 
nations, once Iran developed a nuclear capability, other 
nations in the region--I think you said Syria and the Saudis, 
Syria and Turkey, would be interested in going ahead. I know 
yesterday I've got a quote here where President Abbas said that 
the Palestinians--he criticized Iran for their interference. 
Clearly he wasn't happy with the Palestinians. The Saudi 
Foreign Minister warned other Arab and foreign leaders in Cairo 
on the Iranian challenge, the need for a joint position among 
Arab States on Iran's nuclear program.
    It seems to me there's a--and I know this is too 
simplistic, but it seems to me there's a lot of people in the 
region who are very much interested in Iran not getting a 
nuclear capability. Can the two of us give us kind of ideas of, 
is this something we can work on to try to help forestall 
Iran's nuclear capability?
    General Scowcroft. Well, I think there is, there's a lot of 
fear. As a matter of fact, there's a lot of fear of Iran in the 
region. It seems to me one of the ways we can take advantage of 
that is to point out to Iran the consequences of their going 
ahead will not be to improve their security, but will be to 
make them less secure because of the reaction that will be 
produced in the rest of the region.
    Senator Kaufman. Dr. Brzezinski, you talked about keeping 
the military option on the table----
    Dr. Brzezinski. Off the table.
    Senator Kaufman. Off the table. And said that we could use 
it under some circumstances?
    Dr. Brzezinski. These would have to be extreme 
circumstances, because we know what it takes to maintain 
deterrence and we can reinforce it, and I've tried to suggest 
today how we could reinforce it by giving guarantees to Egypt, 
Israel, Saudi Arabia, and so forth--the full American umbrella. 
We cannot predict the consequences of a military action with 
Iran, except that we can anticipate that they'll be very 
difficult for us in Iraq, in Afghanistan, in the Persian Gulf, 
more generally financially and economically, and perhaps in 
terms of renewed global isolation.
    So I think as a serious proposition the use of force ought 
to be reserved in most cases either to anticipate and prevent 
at the last moment someone else's use of force or in response 
to an attack. But I think preventive warfare is not a good 
bargain in the nuclear age, nor is it a good bargain for the 
United States when we're already running the risk of being 
bogged down for the next 10 years, maybe 20 years, in 
Afghanistan and Pakistan.
    Senator Kaufman. Could you just talk about--and you talked 
about a number of things. What do you think the impact would be 
in Pakistan if we used the military, or someone used the 
military option against Iran?
    Dr. Brzezinski. What would be the impact where?
    Senator Kaufman. On Pakistan, their government.
    Dr. Brzezinski. I think it would be very mixed, but 
probably in an overall sense it would intensify anti-
Americanism, because it will be interpreted as another case of 
the United States going to war against an Islamic country. And 
there are a number of Shiites of some significance in Pakistan. 
I think more generally it will be part of this feeling, which 
is already pervasive, that we have locked ourselves into a kind 
of anti-Islamic posture which is in their view very one-sided, 
and which is I think becoming more pervasive, sad to say, in 
Pakistan in general, and is thereby transforming the Afghan 
problem for us into an Afghan-Pakistani problem, making it 
increasingly difficult to resolve.
    I just think that if we got into a military conflict with 
Iran--and I have no hesitation in saying this publicly--it 
would absolutely devastate the historical legacy of the Obama 
presidency and damage the United States, which is even more 
important.
    Senator Kaufman. I'm out of time, but General.
    General Scowcroft. I broadly agree with that. The use of 
force sometimes looks like an easy option: cut through all the 
nonsense, get to the core of it. But force brings its own 
momentum. It changes the nature of the game, and I think in 
this case it would change it strongly against the United States 
and its interests in the region.
    Dr. Brzezinski. And it's unpredictable.
    General Scowcroft. Hmm?
    Dr. Brzezinski. And it's unpredictable.
    General Scowcroft. It's always--that's what I say. It 
changes the whole nature of the game, as we found out in Iraq.
    Senator Kaufman. Thank you, and thank you both for your 
great service to this country.
    Thank you, Mr. Chairman.
    The Chairman. Thank you so much, Senator Kaufman, for a 
terrific line from both you and Senator Casey. Good questions. 
I think you covered the bases that we left open.
    We for once have serendipitous timing with the United 
States Senate here, because we're actually starting the vote 
just as we're concluding the questions. So that's pretty good.
    Yesterday I had the privilege of speaking at Brookings 
Institute on the Middle East and laid out some thoughts about 
Iran. I think--and not just Iran, but the entire peace process. 
I really am grateful, as Senator Lugar is, for your testimony 
here today, which dovetails into that. I am convinced we've got 
to be smart, restrained, thoughtful, skilled in our diplomacy, 
so that we have an opportunity to really pursue every avenue 
with the greatest potential for success. It would be silly to 
shut those down ourselves.
    I thought Dr. Brzezinski's opening comments about how you 
can certainly structure a negotiation to be unsuccessful, I 
think it was a very polite way of looking backwards without 
necessarily saying he was looking backward. But the reality is 
that I am convinced, as I think our witnesses are today and 
Senator Lugar, that there are much better prospects than the 
current climate would seem to tell us.
    There's a reason, obviously, for all the negative sides of 
the choices we face, to hold out hope that we can take 
advantage of those. So I hope the leaders of Iran are listening 
carefully, that nobody has come here today seeking the down 
side of this relationship, but rather hopefully diplomacy in 
the next months can produce a productive transition that can be 
effective not just for Iranian-American relations, but for the 
entire region, and indeed set an example hopefully for some 
transition that could take place on a global basis.
    The interconnectedness of these issues is really critical 
for all of us to see, and as we look at the increased tensions 
and volatility of Afghanistan and Pakistan, Yemen, Sudan, 
Somalia--and you can run the list--we have to understand how 
these steps are really going to be related to how people 
perceive us and what we can achieve in those other places.
    So we thank you for contributing to this dialogue this 
morning. I would not disagree with the notion that somehow the 
two of you ought to be very much engaged in this effort with 
respect to Iran, and I will do my part to--and hopefully it 
won't be against your will--to see that we can get your 
expertise to work.
    Senator Lugar, do you want to say anything?
    Senator Lugar. I just join you in thanking our witnesses.
    The Chairman. Thank you so much.
    We stand adjourned. Thank you.
    [Whereupon, at 12:16 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
